October 17, 2001

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:	 Audit Report - Shared Real Estate Appreciation Loan Program
          (Report Number FT-AR-02-001)

This report presents the results of our audit of the Postal Service’s shared real estate
appreciation loan program (Project Number 00PA019FR002). The Board of Governors
requested the overall relocation audit, and this report is the fifth in a series of reports
examining relocation benefits for Postal Service executives. We will prepare a capping
report to summarize the relocation audit work.

Through benchmarking, we determined that the Postal Service’s shared real estate
appreciation loan program was not comparable to programs offered by the private
sector and other government agencies. The program was only offered to a small
number of eligible Postal Service employees, and controls over the program needed
strengthening. Management agreed to our recommendations and has initiatives
completed or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report.

The OIG considers recommendations 1-5 significant and, therefore, requires OIG
concurrence before closure. These recommendations should not be closed in the
follow-up tracking system until OIG provides written confirmation that the
recommendations can be closed. We appreciate the cooperation and courtesies
provided by your staff during the review. If you have any questions, please contact me
at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment
cc:	 Richard J. Strasser, Jr.
     John M. Nolan
     Suzanne F. Medvidovich
     Mary Anne Gibbons
     William T. Johnstone
     John R. Gunnels
Shared Real Estate Appreciation                                    FT-AR-02-001
 Loan Program


                           TABLE OF CONTENTS
 Executive Summary	                                                          i


 Part I


 Introduction	                                                              1


     Background                                                             1

     Objectives, Scope, and Methodology                                     1

     Prior Audit Coverage                                                   2


 Part II


 Audit Results	                                                             4


     Program Not Comparable With Private and Public Sector	                 4


     Equitability is Questionable                                           6

     Recommendation                                                         6

     Management’s Comments                                                  7

     Evaluation of Management’s Comments                                    7


     Lack of Program Controls                                               8

     Recommendations                                                       12

     Management’s Comments                                                 12

     Evaluation of Management’s Comments                                   13


 Appendix A.	 Shared Real Estate Appreciation Loan Program                 14

              Benchmarked Companies


 Appendix B.	 Shared Real Estate Appreciation Participants by              15

              Functional Area January 1997 through October 2000


 Appendix C.	 Shared Real Estate Appreciation Participants by              16

              Metropolitan Area and Vice President Level
              January 1997 through October 2000

 Appendix D.	 Management’s Comments                                        17





                                  Restricted Information
Shared Real Estate Appreciation                                                          FT-AR-02-001
 Loan Program


                                    EXECUTIVE SUMMARY
 Introduction                     This report addresses the Postal Service’s shared real
                                  estate appreciation loan program. It examines:
                                  (1) comparability of the program with those offered in the
                                  private and public sectors; (2) equitability of program
                                  participation; and (3) adequacy of program controls. The
                                  Board of Governors requested the overall audit on
                                  relocation benefits, and this report is the fifth in a series of
                                  reports examining such benefits for Postal Service
                                  executives. Our relocation work is continuing, and a
                                  capping report will be issued summarizing our work in this
                                  area.

 Results in Brief
                Our audit disclosed that the shared real estate appreciation
                                  loan program was not comparable to programs offered by
                                  private and public sector agencies. None of the
                                  20 organizations we benchmarked with purchased
                                  employees’ homes and operated as the lien holder.

                                  Between January 1997 and October 2000, the shared real
                                  estate appreciation loan program was offered to
                                  48 individuals, 10 of which did not meet program
                                  requirements for eligibility. Further, the program was
                                  offered in three areas that did not meet program
                                  requirements and five employees participated multiple times
                                  regardless of their eligibility.

                                  Controls over the shared real estate appreciation loan
                                  program needed strengthening. The program was
                                  administered based on informal policies that did not address
                                  granting exceptions to the program or establishing adequate
                                  documentation for loan information.

 Summary of                       We recommended that the vice president, Finance,
 Recommendations                  controller, provide the shared real estate appreciation loan
                                  program policy to all executives, improve program
                                  documentation, restrict program participation to defined high
                                  cost areas, update approved high cost areas annually, and
                                  ensure that program exceptions are in the best interest of
                                  the Postal Service.

 Summary of                       Management generally agreed with the recommendations
 Management’s                     and implemented actions to provide the shared real estate
 Comments                         appreciation loan policy to all executives, restrict program
                                  participation to defined high cost areas, and ensure that

                                                      i
                                           Restricted Information
Shared Real Estate Appreciation                                                       FT-AR-02-001
 Loan Program


                                  program exceptions are in the best interest of the Postal
                                  Service. Additionally, for future shared appreciation loan
                                  mortgages, program documentation will be improved.

                                  Although management agreed with the need to accurately
                                  measure differences in the urban cost-of-living index, they
                                  noted that an annual review, as recommended, was too
                                  frequent. They proposed conducting a biennial index review
                                  and searching for another index source other than the
                                  American Chamber of Commerce Researchers
                                  Association's index. They noted that the Chamber of
                                  Commerce is not required to update the index annually and
                                  the testers may change the area reviewed. Management’s
                                  comments, in their entirety, are included in Appendix D of
                                  this report. We appreciate management’s efforts to take
                                  immediate corrective action when these issues were
                                  brought to their attention during the audit.

                                  Additionally, management commented in subsequent
                                  meetings, that this program was an accepted practice by
                                  major universities. Universities intended this program as a
                                  means to attract and retain talent.

 Overall Evaluation of            Postal Service management’s actions taken and planned
 Management’s                     were responsive to our recommendations. In addition, to
 Comments                         address management’s subsequent comments, we are
                                  performing additional work to determine the extent of this
                                  practice by universities and will address this issue in our
                                  overall capping report.




                                                     ii
                                          Restricted Information
Shared Real Estate Appreciation                                                           FT-AR-02-001
 Loan Program


                                          INTRODUCTION
 Background                       The shared real estate appreciation loan program,
                                  established in 1989, allows Postal Service executives to
                                  relocate to high-cost areas without lowering their standard of
                                  living. Under the program, executives offset increased
                                  mortgage costs by applying equity from a previous residence
                                  to the purchase of a new residence, with the Postal Service
                                  absorbing any increase in the overall cost of the home and
                                  mortgage. When the home is sold, the Postal Service is
                                  entitled to a return of its equity interest and a share of any
                                  appreciation. At the time of our review there were
                                  30 residences in the program valued at $12.3 million.

                                  Table 1 details the highest and lowest purchase price of
                                  residences acquired through the shared real estate
                                  appreciation loan program.

                                               Table 1: Shared Real Estate Appreciation
                                                        Loan Program Snapshot

                                                                              Lowest     Highest
                                                                             Purchase   Purchase
                                                                               Price      Price
                                    New Home Purchase Price                    $300,000   $583,245
                                    Less Down Payment                           $55,000    $75,245
                                    Total Amount Financed                      $245,000   $508,000
                                    Less Fixed (Employee) Portion              $145,000   $274,800
                                    Shared Portion (Contingent Deferred
                                    Mortgage)                                  $100,000      $233,200
                                    Postal Service Interest In Property         33.33%        39.98%
                                    Mortgage Interest Rate                      7.500%        7.000%
                                    Monthly Principal and Interest Payment
                                    Based on Total Amount Financed               $1,713        $3,380
                                    Monthly Principal and Interest Payment
                                    Based on Fixed Portion                       $1,014        $1,828
                                    Monthly Savings To Employee                    $699        $1,551

                                  Appendix B details the program participants by functional
                                  areas. Appendix C shows the major metropolitan areas
                                  where participant homes were located.

 Objectives, Scope,
              The objectives of our audit were to determine whether the
 and Methodology
                 Postal Service’s shared real estate appreciation loan
                                  program was: (1) comparable with private industry and public
                                  sector agencies, (2) offered equitably to eligible Postal
                                  Service employees, and (3) adequately controlled.


                                                      1
                                           Restricted Information
Shared Real Estate Appreciation                                                      FT-AR-02-001
 Loan Program



                                  To determine whether the Postal Service’s shared real estate
                                  appreciation loan program was comparable with private
                                  industry and similar government agencies, we surveyed
                                  24 Fortune 500 companies and 7 nonappropriated
                                  government agencies. A listing of these agencies is included
                                  in Appendix A. We compared the Postal Service’s shared
                                  real estate appreciation loan program with programs used by
                                  these entities to help reduce housing costs for employees
                                  moving to high cost areas.

                                  To determine whether the program was offered equitably to
                                  eligible Postal Service employees, we reviewed program
                                  guidelines prepared by the Postal Service for the shared real
                                  estate appreciation loan program. We also reviewed
                                  supporting documents for 48 current or former participants in
                                  the shared real estate appreciation loan program from
                                  January 1997 to October 2000. Additionally, we reviewed
                                  American Chamber of Commerce Researchers Association’s
                                  cost-of-living index reports from 1994 through 1999. Finally,
                                  we discussed program eligibility requirements and
                                  participation with Postal Service officials.

                                  To determine whether controls over the shared real estate
                                  appreciation loan program were adequate, we reviewed the
                                  Postal Service’s Travel and Relocation Handbook and
                                  program guidelines.

                                  We conducted the audit from May 2000 through
                                  September 2001 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our findings and conclusions
                                  with management officials and included their comments,
                                  where appropriate.

 Prior Audit Coverage
            In our May 2000 report, Relocation Benefits for Postal
                                  Service Officers, (Report Number FR-FA-00-010(R)), we
                                  concluded that two officers, who were promoted but did not
                                  change duty stations, received relocation benefits of about
                                  $248,000 for moves within the local commuting area. In
                                  addition, we found that controls were not in place to ensure
                                  that the Board of Governors approved relocation benefits.
                                  Management concurred with our recommendation to require
                                  written justification documenting the reasons for relocations



                                                     2
                                          Restricted Information
Shared Real Estate Appreciation                                                        FT-AR-02-001
 Loan Program



                                   within the local commuting area. Also, the Board of
                                   Governors agreed with our recommendations to review and
                                   approve deviations from officer relocation policy and
                                   components of officer incentive plans.
                                  .
                                  Our September 2000 report, Miscellaneous Relocation
                                  Expense Payments, (Report Number FT-AR-00-001)
                                  concluded that executives received miscellaneous relocation
                                  expense payments of $10,000 or $25,000 without having to
                                  document expenses incurred. Consequently, payments
                                  could be perceived as a way to exceed the statutory limits on
                                  compensation, which according to the Postal Service, does
                                  not include relocation benefits. Management agreed with our
                                  recommendations to use benchmarking information for
                                  determining the appropriate payments and to update and
                                  publish criteria used for requesting payments. However,
                                  management disagreed with our recommendation to
                                  implement controls to ensure payments are not received until
                                  relocation has commenced and to classify payments
                                  exceeding the miscellaneous expense amount as relocation
                                  bonuses.

                                  In September 2000, we issued a report, Equity Loss
                                  Payments, (Report Number FT-AR-00-004), that examined
                                  payments for losses on real estate transactions incurred as
                                  part of relocation benefits for Postal Service executives. We
                                  confirmed that the Postal Service policy of reimbursing
                                  employees for losses incurred on real estate transactions
                                  was similar to policies of private and public sector agencies.
                                  In addition, payments were calculated properly based on
                                  verbal formulas provided by Postal Service officials.
                                  However, controls over equity loss payments needed
                                  improvement. Management agreed with our
                                  recommendation to fully document policies and procedures
                                  for equity loss calculations and reimbursements; and develop
                                  and publish a list of approved capital improvements used in
                                  determining losses on the sale of employees’ residences.

                                  In September 2000, we issued a report, Deviations from
                                  Postal Relocation Policy, (Report Number FT-AR-00-005) on
                                  deviations from the Postal Service’s Relocation Policy that
                                  were granted to Postal Service executives. We concluded
                                  the deviations reviewed appeared to be in accordance with
                                  Postal Service relocation policy and in the best interest of the
                                  Postal Service. No recommendations were offered with this
                                  report, and management did not provide comments.

                                                     3
                                          Restricted Information
Shared Real Estate Appreciation                                                     FT-AR-02-001
 Loan Program




                                         AUDIT RESULTS
 Program Not                      The Postal Service’s shared real estate appreciation loan
 Comparable With                  program was not comparable to programs offered by private
 Private and Public               and public sector agencies. None of the 20 organizations
 Sector                           we benchmarked with purchased employees’ homes and
                                  operated as the lien holder. The Postal Service carries the
                                  home as an asset on their financial statements. A portion of
                                  the asset is owned by the Postal Service and does not
                                  require a monthly payment. The following example
                                  illustrates how the shared real estate appreciation loan
                                  program works:

                                        An employee purchased a home in Memphis,
                                        Tennessee, in 1993 for $185,000. The initial
                                        mortgage on the home was $175,000. The employee
                                        sells the residence in 2000 for $200,000 upon
                                        reassignment to Washington, D.C. The employee
                                        pays off the mortgage balance of $168,000 leaving
                                        $32,000 of equity to put into the new home.

                                        The employee finds a new home in the Washington
                                        metro area for $340,000 that is purchased by the
                                        Postal Service. The employee invests $32,000 of
                                        equity into the new residence, leaving a balance of
                                        $308,000. The employee's new fixed mortgage is set
                                        at $190,000. The Postal Service provides the
                                        employee with a 30-year mortgage on this amount at
                                        7.5 percent, which equates to a monthly payment of
                                        $1,329. This represents a savings of $825 if the
                                        employee’s monthly mortgage payment was based
                                        on $308,000.

                                        The Postal Service carries the remaining $118,000 on
                                        its financial statements as a contingent deferred
                                        mortgage. This amount represents the Postal
                                        Service’s 34.7 percent interest in the home. A
                                        summary of how the shared real estate appreciation
                                        loan program works is contained in Table 2.




                                                     4
                                          Restricted Information
Shared Real Estate Appreciation                                                        FT-AR-02-001
 Loan Program



                                    Table 2: Summary of How the Shared Real Estate Appreciation
                                                            Loan Program Works
                                   New Home Purchase Price                              $340,000
                                   Less Down Payment                                    -$ 32,000
                                   Balance                                              $308,000
                                   Less Fixed (Employee) Mortgage                      -$190,000
                                   Shared Portion (Contingent Deferred
                                   Mortgage)                                            $118,000
                                   Postal Service Interest in Property                     34.7%
                                   Mortgage Interest Rate                                   7.5%
                                   Monthly Principal and Interest Payment Based
                                   on $308,000                                             $2,154
                                   Monthly Principal and Interest Payment based
                                   on $190,000                                             $1,329
                                   Monthly Savings                                           $825

                                  The Postal Service’s costs include the cost of capital for the
                                  duration of the loan and mortgage processing costs that
                                  total approximately $500 per loan.

                                  Six of the twenty organizations that we contacted helped
                                  employees obtain lower mortgage interest rates. The
                                  employer provides a mortgage interest differential payment
                                  to the employee to offset the costs associated with a higher
                                  interest rate. The normal term for these payments was
                                  3 years.




                                                     5
                                          Restricted Information
Shared Real Estate Appreciation                                                                 FT-AR-02-001
 Loan Program



    Equitability is
              The shared real estate appreciation loan program was
    Questionable
                 offered to 48 individuals from January 1997 to
                                  October 2000. This represents a limited number of the total
                                  eligible executives, which is about 1,000 employees. Five of
                                  these employees were executives who had participated in
                                  the program several times. Four employees had
                                  participated at least twice since 1997, and one employee
                                  had participated three times.

                                  Participation in the shared real estate appreciation loan
                                  program was designed to be limited to officers and their
                                  direct reports.1 The shared real estate appreciation loan
                                  program was not publicized to all eligible Postal Service
                                  employees or included in Postal Service policy manuals,
                                  handbooks, or bulletins from inception of the program in
                                  1989 through 2000. In September 2000, the chief financial
                                  officer issued guidance on the shared real estate
                                  appreciation loan program to Postal Service officers. The
                                  guidance defined the program along with the criteria for
                                  program participation. Program eligibility was changed to
                                  include all executives, not just those that directly reported to
                                  officers. This information, however, was only disseminated
                                  to officers instead of all eligible program participants. In
                                  December 2000, the Postal Service issued a revised
                                  relocation handbook2 that made reference to the shared real
                                  estate appreciation loan program, but did not contain
                                  specific information on the program.

                                  Consequently, not all eligible Postal Service officers and
                                  executives had access to program information. Because of
                                  limited participation in the shared real estate appreciation
                                  loan program, there could be a perception that all eligible
                                  employees were not treated fairly and equally.

    Recommendation                We recommend the vice president, Finance, controller:

                                    1.	 Provide all Postal Service executives the policy for the
                                        shared real estate appreciation loan program.



1
 A July 28, 1998, letter sent from the chief financial officer to the postmaster general.
2
 Handbook F-15, Travel and Relocation, Part 3 Relocation (non-bargaining only) replaces Handbook F-11, PCES
Relocation Policy and Handbook F-12, Relocation Policy for non-bargaining employees only. Handbook F-12,
Relocation Policy is used by bargaining employees.



                                                      6
                                           Restricted Information
Shared Real Estate Appreciation                                                        FT-AR-02-001
 Loan Program



 Management’s                     Management agreed with the recommendation and stated
 Comments                         this was completed last year. In the acting chief financial
                                  officer and executive vice president’s memorandum to
                                  officers, dated September 29, 2000, details of the program
                                  were spelled out and worksheets included. All new officers
                                  receive this package. It is customary that information
                                  addressed to officers that concerns Postal Career Executive
                                  Service managers be distributed as needed. Management
                                  believed that this occurred, and the result was the full and
                                  complete distribution of program information. Additionally,
                                  the Internet F-1 5 relocation handbook, issued last year,
                                  cites the availability of the program.

                                  Additionally, management commented in subsequent
                                  meetings, that this program was an accepted practice by
                                  major universities. Universities intended this program as a
                                  means to attract and retain talent.

 Evaluation of                    Management took corrective action when this issue was
 Management’s                     briefed to them during the audit. This action was responsive
 Comments                         to our recommendation. In addition, to address
                                  management’s subsequent comments, we are performing
                                  additional work to determine the extent of this practice by
                                  universities and will address this issue in our overall capping
                                  report.




                                                     7
                                          Restricted Information
Shared Real Estate Appreciation                                                                        FT-AR-02-001
 Loan Program



    Lack of Program               Controls over the shared real estate appreciation loan
    Controls                      program were inadequate, allowing exceptions to be granted
                                  that compromised program objectives. As a result, 10 of
                                  48 participants were not eligible, and benefits were paid for
                                  moves that were not to high cost cities. In addition, the
                                  program was offered in three areas that did not meet
                                  program requirements and five employees participated
                                  multiple times, regardless of their eligibility. Important
                                  documentation on shared appreciation loans was also
                                  missing or incomplete. This occurred because the program
                                  was administered based on informal policies that did not
                                  address granting program exceptions or establishing
                                  adequate documentation for loan information. Without
                                  adequate controls, the shared real estate appreciation loan
                                  program may be used inconsistently and inappropriately.

                                  The Postal Service did not formally document policy and
                                  procedures for the shared real estate appreciation loan
                                  program. While reviewing memoranda and notes about
                                  program participants, we found several policy initiatives that
                                  were not included in Postal Service policy manuals or
                                  handbooks. For example, a memorandum outlined how an
                                  additional down payment on a residential purchase resulted
                                  in a decrease in the shared loan amount carried by the
                                  Postal Service. This policy was not found in the other
                                  documents we reviewed.

                                  In a September 2000 letter to officers from the acting chief
                                  financial officer and executive vice president, the Postal
                                  Service documented the policy for the shared real estate
                                  appreciation loan program. The letter outlined the program
                                  and gave eligibility requirements and specific examples of
                                  how financing would be arranged. At that time, the shared
                                  real estate appreciation loan program was not referenced in
                                  the Postal Service’s relocation handbook. The Postal
                                  Service added a reference to the program in the F-15,
                                  Travel and Relocation Handbook, dated December 22,
                                  2000. However, no specific program guidance was included
                                  in the handbook.

    Benefits Paid to	             The Postal Service granted exceptions in 35 percent3 of the
    Ineligible Employees	         shared real estate appreciation loan files we reviewed.
                                  Postal Service management approved these exceptions
                                  because the positions and employees were considered key
3
Exceptions to the shared real estate appreciation policy were granted for 17 of the 48 files we reviewed.

                                                         8
                                              Restricted Information
Shared Real Estate Appreciation                                                                 FT-AR-02-001
 Loan Program



                                  to overall operations. However, the large number of
                                  exceptions may have compromised the program objectives.
                                  As a result of these exceptions, the program expanded to
                                  cities not included in the program and to employees that did
                                  not report directly to officers, and, therefore, may not have
                                  been in the best interest of the Postal Service.

                                  We found 10 individuals out of the 48 participants were not
                                  officers and did not directly report to officers. For example,
                                  one employee, an attorney, reported to an individual who
                                  was three levels below that of an officer. In addition, certain
                                  postmasters and postal inspectors participated in the
                                  program, although they did not directly report to officers.
                                  Postal Service officials told us that it was policy to allow
                                  postal inspectors to participate in the shared real estate
                                  appreciation loan program, but we found no documentation
                                  of this policy. Also, the program was offered in three areas
                                  that did not meet program requirements and five employees
                                  participated multiple times regardless of their eligibility.

                                  Per the revised shared appreciation loan program policy, all
                                  requests for exceptions are to be addressed to the manager,
                                  Corporate Personnel, who coordinates with Finance.
                                  Requests for members of the Postal Career Executive
                                  Service should be sent to the manager, Corporate
                                  Accounting, who coordinates with Human Resources.

    Payments Made for             Cities such as Philadelphia, Pennsylvania; Chicago, Illinois;
    Moves Other Than To           and Sacramento, California, were included in the Postal
    High Cost Cities              Service’s shared real estate appreciation loan program,
                                  although they were not officially part of the program. Postal
                                  Service criteria for high-cost cities are based on the
                                  American Chamber of Commerce Researchers
                                  Association’s cost-of-living index and these cities did not
                                  meet that criterion. Only the following cities with an index
                                  over 50 percent above the average (100) index were
                                  authorized by the Postal Service:4




4
 Los Angeles and Long Beach, California, were subsequently added and San Diego was removed in accordance with
a memorandum issued on September 29, 2000, by the acting chief financial officer and executive vice president.

                                                      9
                                           Restricted Information
Shared Real Estate Appreciation                                                               FT-AR-02-001
 Loan Program



                                     −    San Francisco, California

                                     −    New York, New York

                                     −    Boston, Massachusetts

                                     −    District of Columbia

                                     −    San Diego, California


                                  Postal Service officials told us that Sacramento was
                                  included because participants who subsequently relocated
                                  could remain in the program if their housing index did not
                                  decrease by more than 25 points.

                                  By including cities not listed in the memorandum from the
                                  chief financial officer, the Postal Service expanded the
                                  program beyond what was initially planned. Table 3 shows
                                  the information received from the American Chamber of
                                  Commerce Researchers Association, which listed
                                  three additional cities with a composite index over 150. The
                                  table also lists 16 additional cities that could be included
                                  based on the continuation aspect of the program.


                                         Table 3: American Chamber of Commerce Researchers
                                          Association Cost-of-Living Index, Fourth Quarter 1999


                                      Cost-of-Living Index                Number of Cities
                                   Greater than 150                              8*
                                   125 - 150                                    16 **

                                   * Framingham, Massachusetts; Los Alamos, New Mexico; and
                                   Los Angeles-Long Beach, California. Also included are five cities
                                   in the shared real estate appreciation loan program: San
                                   Francisco, California; New York, New York; Boston,
                                   Massachusetts; District of Columbia; San Diego, California.

                                   ** New Haven, Connecticut; Glenwood Springs, Colorado; Santa
                                   Fe, New Mexico; Kodiak, Alaska; Anchorage, Alaska; Scottsdale,
                                   Arizona; Pittsburgh, Pennsylvania; Philadelphia, Pennsylvania;
                                   Juneau, Alaska; Chicago, Illinois; Springfield, Massachusetts;
                                   Hartford, Connecticut; Burlington, Vermont; Corvallis, Oregon;
                                   Denver, Colorado; and Hilton Head Island, South Carolina.

                                  In a September 2000 letter to officers from the acting chief
                                  financial officer, the Postal Service identified geographic
                                  areas that should be included in the shared real estate
                                  appreciation loan program because of the high cost of
                                  housing. The letter also stated that officers in other areas
                                  might be eligible if the cost of the housing differential
                                  between the previous residence and a comparable new

                                                      10
                                            Restricted Information
Shared Real Estate Appreciation                                                       FT-AR-02-001
 Loan Program



                                  residence increased by 25 points. Participants who
                                  subsequently relocated would be recommended for
                                  continuation if the housing index did not decrease by more
                                  than 25 points or was in one of the geographic areas listed.

                                  Although the Postal Service used the American Chamber of
                                  Commerce Researchers’ Association’s cost-of-living index
                                  for geographic areas, it has not addressed the issue of
                                  expanding the program. In addition, the Postal Service has
                                  not addressed how frequently it will evaluate the cost-of-
                                  living index.

                                  As a result, the program initially designed for five high-cost
                                  areas may include at least 24 cities. This could significantly
                                  increase the cost of the shared real estate appreciation loan
                                  program. Although the Postal Service recognized the need
                                  to formalize policies and procedures for the program,
                                  management has not adequately addressed program
                                  exceptions noted in this report.

 Missing or Incomplete            Documentation of shared real estate appreciation loan
 Documentation                    information was missing or incomplete. Important
                                  information, such as approvals for entrance into the
                                  program, approved exceptions, and the names of the
                                  nominating officers, was missing from participants’ files. In
                                  addition, files frequently did not include documentation of
                                  equity from the sale of the former residence and information
                                  indicating that all equity was used as a down payment.
                                  This documentation was not included in all files because it
                                  was not required when the shared real estate appreciation
                                  loan program was created. According to General
                                  Accounting Office standards for internal control in the federal
                                  government, organizations should have control activities in
                                  place to help ensure that all transactions and events are
                                  completely and accurately recorded. Without adequate
                                  supporting documentation, management assumes the risk
                                  for potential waste, fraud, or abuse in a program.

                                  To address concerns about the documentation of loan
                                  information, the Postal Service has developed a participant
                                  planning worksheet that documents approval for inclusion in
                                  the shared real estate appreciation loan program. The
                                  worksheet explains the approved exceptions and lists the
                                  names of nominating officers. However, the worksheet does
                                  not mention equity received from the sale of a former


                                                    11
                                          Restricted Information
Shared Real Estate Appreciation                                                       FT-AR-02-001
 Loan Program



                                  residence and does not require the participant to state that
                                  all equity was used as a down payment.

 Recommendation	                  We recommend the vice president, Finance, controller:

                                    2.	 Review exceptions made to program participation to
                                        ensure that approvals are based on documentation
                                        showing that the move is in the best interest of the
                                        Postal Service and are in line with the objectives of
                                        the shared real estate appreciation loan program.

 Management’s                     Management generally agreed with this recommendation.
 Comments                         Management noted that, under revised guidelines adopted
                                  last year, all requests for inclusion in the program would be
                                  approved, as appropriate, by the Board of Governors or the
                                  chief financial officer and the deputy postmaster general
                                  and, unless otherwise approved by the Board of Governors,
                                  would be restricted to high cost areas as defined in the
                                  program. The approvals, if granted, are considered to be in
                                  line with the objectives of the program and in the best
                                  interest of the Postal Service.

 Recommendation                     3. Restrict program participation to high cost areas as
                                       defined in the program.

 Management’s	                    Management agreed with this recommendation and stated
 Comments	                        this was completed last year. Management noted that the
                                  Board of Governors has the authority to approve officer
                                  participation in the program regardless of location.

 Recommendation                     4.	 Annually review the American Chamber of Commerce
                                        Researchers’ Association’s cost-of-living index to
                                        ensure that it accurately measures cost differences
                                        among urban areas to ensure continued qualification
                                        for participation in the program.

 Management’s                     Management also agreed that there was a need to
 Comments                         accurately measure differences in the urban cost-of-living
                                  index. However, they proposed conducting a biennial index
                                  review and searching for another index source other than
                                  the American Chamber of Commerce Researchers
                                  Association's index. They noted that the Chamber of
                                  Commerce is not required to update the index annually and
                                  the testers may change the area reviewed.


                                                    12
                                          Restricted Information
Shared Real Estate Appreciation                                                      FT-AR-02-001
 Loan Program




 Recommendation                     5.	 Ensure that program participants use the entire
                                        amount of equity received from the sale of their prior
                                        residences as a down payment and fully document
                                        this in program files and the shared appreciation loan
                                        program planning worksheet.

 Management’s                     Management noted that it has been a practice that all equity
 Comments                         obtained from the sale of the previous residence be used as
                                  the down payment on the new residence. They will include
                                  copies of the equity statements of HUD-1 settlement records
                                  in the documentation from the prior residence sale.

 Evaluation of                    We appreciate management’s immediate corrective actions
 Management’s                     when these issues were briefed to them during the audit.
 Comments                         Management’s actions taken or planned were responsive to
                                  our recommendations.




                                                    13
                                          Restricted Information
Shared Real Estate Appreciation                                          FT-AR-02-001
 Loan Program




                           APPENDIX A
          SHARED REAL ESTATE APPRECIATION LOAN PROGRAM
                    BENCHMARKED COMPANIES
We contacted the following 31 private and public sector organizations:

    1.    AIG
    2.    AT&T
    3.    Bell Atlantic
    4.    Boeing
    5.    Citigroup
    6.    Comptroller of the Currency
    7.    Costco
    8.    Enron
    9.    Fannie Mae
    10.   Federal Deposit Insurance Corporation
    11.   Federal Reserve
    12.   FedEx
    13.   Freddie Mac
    14.   Hewlett-Packard
    15.   Home Depot
    16.   Department of Housing and Urban Development
    17.   IBM
    18.   Intel
    19.   Johnson & Johnson
    20.   Kmart
    21.   Lucent
    22.   Pepsi
    23.   Phillip Morris
    24.   SBC Communication
    25.   Sears & Roebuck
    26.   State Farm
    27.   Target
    28.   Texaco
    29.   Tennessee Valley Authority
    30.   United Parcel Service
    31.   Walmart




                                             14
                                   Restricted Information
Shared Real Estate Appreciation                                            FT-AR-02-001
 Loan Program



                                    APPENDIX B
                         SHARED REAL ESTATE APPRECIATION
                         PARTICIPANTS BY FUNCTIONAL AREA
                        JANUARY 1997 THROUGH OCTOBER 2000

                                            Number of     Percentage of
          Vice President Level             Participants Participants5
Pacific Area Operations                                12          25.0
Inspection Service                                      6          12.5
Sales                                                   5          10.4
Technology                                              5          10.4
Human Resources                                         4           8.3
General Counsel                                         4           8.3
Controller                                              3           6.3
Chief Operating Officer                                 1           2.1
Expedited Package Services                              1           2.1
Marketing Systems                                       1           2.1
Network Operations Management                           1           2.1
Allegheny Area Operations*                              1           2.1
Great Lakes Area Operations                             1           2.1
Northeast Area Operations                               1           2.1
Workforce Planning                                      1           2.1
New York Area Operations                                1           2.1
                                                       48         100.0

* Effective with the Postal Service reorganization on September 8, 2001, the Allegheny
Area no longer exists and was absorbed into a new geographical area, which is now the
                                      Eastern Area.




5
    Percentages are rounded.

                                            15
                                  Restricted Information
Shared Real Estate Appreciation                                            FT-AR-02-001
 Loan Program


                          APPENDIX C
         SHARED REAL ESTATE APPRECIATION PARTICIPANTS
         BY METROPOLITAN AREA AND VICE PRESIDENT LEVEL
              JANUARY 1997 THROUGH OCTOBER 2000

 Metropolitan                                                          Number of
     Area                          Vice President Level               Participants
Boston,              Northeast Area Operations                                   1
Massachusetts
Chicago, Illinois    Great Lakes Area Operations                                 1
District of          Chief Operating Officer                                     1
Columbia
                     Controller                                                  3
                     Human Resources                                             4
                     Inspection Service                                          3
                     General Counsel                                             3
                     Marketing Systems                                           1
                     Network Operations Management                               1
                     Sales                                                       4
                     Technology                                                  3
                     Workforce Planning                                          1
Los Angeles,         Inspection Service                                          1
California
                     Pacific Area Operations                                     3
New York,            Expedited Package Services                                  1
New York
                     Inspection Service                                          2
                     General Counsel                                             1
                     New York Area Operations                                    1
Philadelphia,        Allegheny Area Operations*                                  1
Pennsylvania
Sacramento,          Pacific Area Operations                                     1
California
San Francisco,       Sales                                                       1
California
                     Technology                                                  2
                     Pacific Area Operations                                     8
Total                                                                             48
* Effective with the Postal Service reorganization on September 8, 2001, the Allegheny
Area no longer exists and was absorbed into a new geographical area, which is now the
Eastern Area.

                                               16
                                     Restricted Information
Shared Real Estate Appreciation                            FT-AR-02-001
 Loan Program




                  APPENDIX D. MANAGEMENT’S COMMENTS




                                            17

                                  Restricted Information
Shared Real Estate Appreciation                            FT-AR-02-001
 Loan Program




                                            18

                                  Restricted Information
